( "





                          WORKING TOWARD JOBS


                              The Washington State

            Opportunities and Family Independence (FIP) Programs





               iJWICES.




       '0


            -lli'-d:m


       OFFICE OF INSPECTOR GENERAL
       OFFICE OF EV ALVA TION AND INSPECTIONS
                                                            MAY 1990
OFFICE OF INSPECTOR GENERAL



    The mission of the Offce of Inspector General (DIG) is to promote the efficiency,
    effectiveness, and integrty of programs in the United States Deparment of
    Health and Human Services (HS). It does this by developing methods to detect
    and prevent fraud, waste , and abuse. Crated by statute in 1976, the Inspector
    General keeps both the Secretar and the Congress fully and currently informed
    about programs or management problems and recommends corrective action.
    The DIG performs its mission by conducting audits, investigations, and
    inspections with approximately 1,400 staf sttategically located around the
    countr.



OFFICE OF EVALUATION AND INSPECTIONS


    This report is produced by the Offce of Evaluation and Inspections (DEI), one of
    thee major offices within the DIG. The other two ar the Office of Audit
    Services and the Offce of Investigations. Inspections are conducted in
    accordance with professional standards developed by DEI. These inspections are
    typicaly short-term studies   designed to determne program effectiveness,
    efficiency, and vulnerabilty to fraud or abuse.

    This technical report was prepared to describe the operation of the Washington
    State Opportunities and Family Independence (P) Programs. This technical
    report is par of a larger study which was conducted to describe the operation of a
    sample of mature, well-regarded and comprehensive work programs for AFC
    recipients and the insights of the administtators of those programs.

    This report was prepared under the direction of Emilie Baebel , Chief, Public
    Health and Human Services Branch. This project was led by Suzanne Murn of
    that branch.
   """"""""""""'.""""""""""."'"........................
                            """'".                     """'.".
    .....................................................""'.'.."".'.
..............................................
...-........................................................................-..-                          ".'. .....-     .......    .........................................................................."'.""".""'.""""'."'-
                                                                                                                             ....."""'."""""'.".......................................................................................................................................
                                                                                   ...........-................................................................................................................................................................................
............................................................................................                                        ..........        ......:.:."....-
.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.;.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.;.:.:.:.:.:.;.:.:.
                                                                                                                                                    :.:.:.:.;.  :.:.;.:.:.:.:.:.:.;.:.;.
                                                                                                                                                                                   :.:.:.:.;.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.                 "'.""". ""."".,...........................
                                                                                                                                                                           ..................................................................................................................................
                                                                                                                                         ...... ..............................................................................................................
                                                                                                                                                                                                                                                       :.:.:.:.:.:.:.:.:.:.:.:.;.:.:.:.:.:.:.:.:.:.             """'.'.'"..........................
                                                                                                                                                                                                                                                                                         :.:. :.:.:.:.:.:.:.:.:.:.:.:.
                                                                                                                                                                                                                                                                                                                   :.:.:.:.:.:.:.:.:
                                                                                                                                                                                                                                                                                                                                 .:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.:.::




                                   The Washington

                Opportunities and Family Independence (FIP) Programs





                                                                                                                                          Richard P. Kusserow

                                                                                                                                               INSPECTOR GENERAL





OEI-12-89- 01328                                                                                                                                                                                                                                                                                                                     MAY 1990

    ...                                   . ....... .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .....
                          . . . . . . . . .
                           ..................................                                                          ......."..
                                                                                                                       "'.      . ... ... ... .. ... .. .. .. .. .. ..




INTRODUCTION


PROGRAM PROFILE.                                                                                                                 . . . . . . . . . . . . . 2


           THE STATE OF WASHINGTON
              .................................2

           THE WASHINGTON AFDC PROGRAM                                                     . . . . . . . . . . . . . . . . . . . . . . . . . . 2


           THE OPPORTUNITIES WORK PROGRAM.                                                    . . . . . . . . . . . . . . . . . . . . . . . . . 2


                   General Background. . 

                   Administrative Issues                                                                                                                            . 3



                   Participation Issues. .                                                                                                                         . 4

                   Program Activities                                                                                                                        . . . 4


           THE FAMILY INDEPENDENCE PROGRAM                                                       . . . . . . . . . . . . . . . . . . . . . . . . 8


                   Background                                                                                                                  . . . . . . . . 8


                   Innovations                                                                                                              . . . . . . . . . 9


Appendix A
           PROGRAM OVERVIEW STATEMENT                                                .........................A-

Appendix B

     SAMPLE DOCUMENTS                                                                                                                                        . B­
                                                                     ::::::::::::




             This technical repon is par of a series of
             profiles on the Aid to Famlies with Dependent
             Childrn (AFC) work               programs parcipating
             in the   Working Toward JOBS 
        project.

             Each profie begins with a          caiegorized          IIIII1IIIII1

             description of the subject AFC work program
             which is based on mail guides submitted by the
             progr. Appendix A includes an overview
             statement wrtten by the program manager. It
             describes the program, its goals, philosophy and
             lessons leared. Appendix B is a sample of
             documents used to conduct the program. Each
             program admnisttator was asked to submit
             sample documents which they felt would be
             useful to States and counties developing JOBS
             programs.

             Data collection for this study was done from
             Apri to September of 1989. The information in
             the overview and technical repons is based on
             pre- JOBS work programs for AFC recipients.
             As these programs have converted to JOBS,
             they may have made some changes to meet
             JOBS legal and regulatory requirments.
             Where possible, we have noted the changes the
             program admnisttators anticipated at the time
             of our data collection.




Washington                                          INTRODUCTION
~~~~~~~~
      ~~~~~~~~~~~~
            ~~~~~~~~~~~~~~~
                   ~~~~~
                      ~~~~~~                     ~~~~ ~~~      ~~~~~~~
                                                                   ~~~~~~~~~~~~~~~~
                                                                                ~~~~~
                                                                                  ~~~~~~~~~~~
                                                                                      ~~~~~~
                                                                                         ~~~~~
                                                                                           ~~~




                        rrr ?rr?r????rr???rr??rrt tr?       ?rI?       ?t?                 trrr ?r??r?rr?rr)rr?rr?r??r /?rr?rr??



THE STATE OF                   WASHINGTON

              Population: 4, 684 000

              Main industres: manufacturing, wholesale/retai trade, services

              First quarer 1989 unemployment rate: 6. 7 percent

              Median income for a family of four: $38, 667

              Number living below poverty line: 481 000


THE WASHINGTON AFDC PROGRAM

              For Fiscal Year       (F) 1989:

              Total: $370, 374       000

              Federal share: $203, 683, 000; State share: $166, 691 000

              Average monthly caseload: 74 935

              Client descriptors:

                                      Slightly over 10 percent are under 21
                                      45 percent are 21­
                                      Approximately 34 percent are 30­
                                      Slightly over 11 percent are 40 and over
                                      42 percent do not have a high school diploma or equivalent
                                      average number of children in grant: 1.7
                                      average length of spell on AFC: approx 24 months

THE WASHINGTON AFDC WORK PROGRAM

              Washington is currently operating two work programs for welfare recipients. The
              State has replaced the AFC program, in some counties, with the Famly
              Independence Program (PIP). The PIP includes the cash out of food stamp
              benefits and monetar incentives for paricipation in work and ttaining activities.

              Those recipients who are still in the AFC program are served by the Washington
              Employment Opportnities Program. Because, at the time of data collection
              there was more information available about the outcomes of Opponunities, this
              profie wil begin with Opportnities, but conclude with a section on PI'
              innovations.

              The comments on the Washington work program in the overview report and the
              conference summar are based on the Washington program in ttansition , and
              reflect the innovations used at the PIP sites.



Washington                                                    PROGRAM PROFILE
General Background

Name:             The Washington Employment Opponunities Program , commonly called
                  Opportnities.

Operating Since:             April 1 ,   1986

Program Philosophy: 
           Based upon an integrated service delivery philosophy, the
                  program s goal is to offer employment/self-suffciency assistance to as many
                  AFC applicants and recipients as can be served given the limited program
                  resources.

Program Administrator:
      Cheri Gonyaw
      Chief, Policy and Program Development
      Deparent of Health and Human Services
      DB 31­
      Olympia, Washington 98504
      (206) 586- 2506

Administrative Issues

Structure:           Opportunities is a joint effon between the Deparment of Social and Health
                 Services (DSHS) and the Employment Security Deparment (ESD). The program
                 is centrally administered in collaboration with six geographic service regions.

Funding:             For FY 1988, program activities funding was $6, 920, 536 and supponive
                  services totaled $145, 207. The total cost of the Opportunities program in FY
                  1988 was: $7, 068, 149, which was equally divided between Federa and State
                  sources.

Staff:           The DSHS has assigned the following full-time equivalent positions to
                  Opportnities: 27.3 social workers, 2. 5 supervisors, and 2. 8 clerical , for a tota of
                  32. 6. The ESD has assigned 7 administtative assistants, 4 managers and
                  supervisors, 103 job service specialists , and 6 clerical , for a total of 120.

Measurements:            The DSHS measures the success of Opportunities by ttacking the
                 number served, placements, grant savings, retention rate, and average wage.

Recordkeeping:             Reports are submitted by the ESD on all aspects of their services, as
                 well as detailed expenditure data. The DSHS maintains the Social Service
                  ayment System (SSPS) which provides data concerning services, authorizations
                 and payments. Fiscal reports are also generated by DSHS showing staf and
                 administrative costs for Opportnities.


Washington                                           PROGRAM PROFILE
Provision of Services: 
      The DSHS conttacts direct employment services to ESD. There
               are no sub-conttactors. The decision to conttact employment services to the ESD
               was based on ESD' s trditional role and employment resources.

Outside Resources: 
                The DSHS houses a broad range of human services. Opponunities
               program staf commonly refer clients to these services as needed.

Evaluations:           None to date.

Participation Issues



Participant Descriptors: 
              48, 265 are registered, 19, 306   parcipated beyond   registtation
               in FY 1988.

Target Groups:               Prorities are established as follows: (1)     AFC Unemployed Parent
               recipients, (2) volunteers, (3) long-term recipients, and (4) all others. However
               all clients are eligible for equal services.

Mandatory Activities/Sanctions: 
       Clients must parcipate in sequential or joint
               assessment by DSHS and ESD. In FY 1988, 646 sanctions were taken agairst
               clients who did not comply with the mandatory activities.

Volunteers:         Washington encourages volunteers by requiring AFC eligibilty                staf to
               present information about Opportnities to exempt AFC recipients.

Employment Placements: 
                 There were 5, 704 placements in calendar year 1988. The
               average starng         wage was $5.35   per hour. The 30 day retention rate was 85.
               percent.

Program Activities

Models:          The Washington program admnisttator considers group job search and
               community work experience the most effective activities in helping recipients
               enter un subsidized employment. The program admnisttator names group job
               search and individual job search as the most cost-effective components.

Sequencing:            Information on the usual sequence of services is included in the listing of
               program activities.

Program Activities Listing: 
               What follows is a listing of the program components of
               Opportnities.          Cost , paricipation and placement figures are for FY 1988.




Washington                                              PROGRAM PROFILE
 Orientation
 Activity:         In orientation , the program components are explained and clients are
                 encouraged to paricipate and set up meetings with social workers to plan further
                 services. In some cases, an employabilty and/or social services assessment
                 immediately follows the orientation.

 How Provided: 
        Provided by DSHS social workers and (in some instances) ESD
                 personnel. Done in group meetings.

 Participants:          Paricipants ar   new   AFC applicants, and AFC recipients who have lost
                 their exemption from work program requirements. The next step is personalized
                 assistace in explaining and assistance in accessing services. After that, clients
                 parcipate in assessment of employment related skills and needs, including
                 testing (where appropriate) and evaluation of employabilty.

 Assessment
Activity:          The parcipant   s job history is taen. Basic literacy and math skills
                 explored, but no formal testing process is in place at this time.

How Provided:             Provided by DSHS or ESD staf      in individual interviews.


Participants:          Appropriate for all applicants/recipients. Parcipants are likely to have
                 completed orientation; their next step is employabilty planning.

 Employabilty Planning


Activity:          Each employability plan includes an employment goal and assignment to
                 program components that wil help the parcipant achieve their goal.

How Provided: 
          Provided by DSHS workers in individual meetings with paricipants.

Participants:           This service is appropriate for new AFC applicants and recipients.
                 Paricipants are likely to have completed orientation and assessment.


Supportive Services

Activity:          Child care, counseling, supplemental medical, social and suppon services.

How Provided: 
           Arrangements are made during one-on-one meetings between
                 parcipants and DSHS staff. Child car is provided through licensed providers or
                 in- home care.


Washington                                          PROGRAM PROFILE
Participants:            In FY 1988, 1 020 paricipants received child care.

Costs:          $145 207; $142.36 per parcipant.

Anticipated Changes: 
         Extended child care and medical for recipients exiting AFC due
                to increased earings.

Job Placement

Activity:         Referral to employers.

How Provided:           Provided though individual meetings      with parcipants. Services    are
                performed by the ESD staf.

Participants:           This component is most appropriate for job ready clients. Paricipants   are
                likely to have completed individual and or group job search.

Anticipated Changes: 
           Increased utiization of employment resources.

Group Job Search


Activity:         Group job search (job club) in some sites. Group job seeking activities var
                according to local resources. A minimal program usualy includes an orientation
                to the world of work , job search techniques and resume development. Other sites
                add self- image enhancement exercises, interview techniques using video tape
                feed- back , phone banks, and peer group support sttctures.

How Provided: 
            Provided by ESD staff in a classroom settng, emphasizing the group
                process.

Participants:              233. Appropriate for job ready applicants/recipients. Parcipants   are
                likely to have completed orientation and assessment. Some may have been in
                individual job search.



Costs:          Included with individual job search costs.


Individual Job Search

Activity        : Paricipant- directedjob search. Local policy provides that individuals in job
                search make regular repons of their employment seekig activities, with a
                minimum of two in- person contacts per month.




Washington                                         PROGRAM PROFILE
How Provided: 
         Provided by ESD under a conttact with DSHS. Provided through
                one-on-one meetings between ESD staf and paricipants.

Participants:         16, 892. Recommended for job ready applicants and recipients.
                Parcipants are likely to have completed orientation and assessment.

 Costs:         Costs for both individual and group job search were $6, 814 719; which is $405
                per parcipant.

Community Work Experience

Activity:         Non paid work in public and non-profit agencies for a period of up to 6 months.
                The community work experience program (CWEP) is designed to provide
                parcipants with a recent reference and work experience.

How Provided: 
        Arangements for CWEP ar made though individual meetings between
                ESD staf and parcipants.

Participants:        186. Recommended for reipients with marginal or outdated work skills.
                Some CWEP parcipants may do limited job search while in the CWEP
                component. Further group or individual job search is recommended for those
                who ar stil unemployed at the end of their CWEP placement.

Costs:          $123,445, $796 per parcipant.


Placements: 70.


Work Supplementation


Activity:         On- the-job ttaining for AFDC recipients most in need or hardest-to- find
                employment. While working in ttaining positions, parcipants ear a wage of at
                least $5. 00 per hour and receive regular paychecks diectly from employers.
                Some or all of the paricipant s AFC check is diverted to the employer in order
                to subsidize the wage. Parcipation is voluntar.

How Provided:           Provided by ESD. In Pierce County (4 of 5 sites) work supplementation
                parcipants attend a 4 day employment workshop that focuses on job search.
                Staff match job placement opponunities with workshop parcipants whenever
                possible. In the fifth site ESD works with clients individually to develop
                on- the-job ttaining plans as appropriate. The DSHS must approve the decision
                and assign the client.




Washington                                       PROGRAM PROFILE
                      ...,
                     ~~~
                     .:-:-:-
                     "..:.;,-
                     :::
                     ~~~~




Participants:          110. Work supplementation is recommended for hard to place recipients
                who have received AFC for at least a year, and who have children age 12 or
                older. Paricipants wil have aleady completed an appraisal interview with the
                DSHS social worker and an employabilty plan approved by DSHS and ESD.

Placements:            This is an on- the-job assignment which requirs the employer to retain the
                client for 6 months in un subsidized employment, after the end of the ttaining
                period. Specific numbers are not available.


Costs:          Administtative costs were $290, 352; that is $2 639. 56       per paricipant.



THE FAMILY INDEPENDENCE PROGRAM


Background
                The Famy Independence Progr (P), which began in July of 1988, combines
                the AFC, Medicaid and Foo Stamps programs into one coordiated welfare
                system. The program seeks to help parcipants reach self-sufficiency through
                education and ttaining, and provide incentives which help motivate parcipants.

                The FIP is a 5 year demonsttation project being conducted in 20 welfare offce
                sites. The Urban Institute is performing a 3 year evaluation of FIP.

                The State of Washington reports that in PI' s fIrst 11 months:

                                22, 057 famlies, or about 30 percent of the public assistance caseload,
                                enrolled in FIP;

                                  525 enrollees completed self sufficiency plans;

                                  240 parcipants received some type of education and ttaining in
                                basic vocational skills;

                                 564 clients parcipated in organized     job search effons;


                                264 enrollees were placed in on-the-job ttaining or work experience
                                programs; and

                                 024 pregnant and parenting teens received customized services.

                In FIP' s fIrst year, 2 635 paricipants entered employment at an average wage      of
                $5.45 per hour.


Washington                                             PROGRAM PROFILE
Innovations
Administration:            The FIP administtative plan is designed to allow for maximum input
                  and coordination among those involved with the program. The program is
                  administered by committees of DSHS and ESD offcials and members of the
                  community, including former and curent welfare recipients. The committees
                  responsible for administering PI are:

                  The FIP Executive Committee: 
  This committee sets FIP policy, oversees
                  operation of the program, and directs DSHS and ESD management of the
                  program. The commttee is chaired by the DSHS Secretar, co-chaired by the
                  ESD Commissioner, and includes the Director of the Office of Financial
                  Management and two executives from DSHS and ESD. In addition , there are two
                  non-voting members who received public assistance in the past and later achieved
                  economic independence.

                  The Executive Committee appoints a PI Executive Director to coordinate
                  program management and policy development with the two lead agencies. The
                  DSHS and ESD are responsible for field operations and ongoing administtation
                  of the program.

                  FIP State Advisory Committee: 
     Meets monthly to provide the Executive
                  Committee with advice and recommendations on major policy issues. The
                  committee has broad representation, with members from business, labor
                  education and community agencies, as well as four legislators and six Famly
                  Opportnity Council representatives.


                  Family Opportunity Councils: 
  These councils, one in each of the six
                  geographic regions, reach out to enrollees and actively engage them in building
                  community self- help systems. The councils also provide suggestions to local
                  management on FIP operations. Council members are FIP enrollees, former
                  AFC recipients and representatives of non-profit organizations.
                  Regional Management Committees: 
   The management committees are
                  responsible for developing annual business plans for each region and day-to- day
                  management of the program. The committees consist of the DSHS Regional
                  Administtator for Economic and Medical Field Services and the ESD Regional
                  Director.

                  Regional Policy Committees: 
   The policy committees are designed to strngthen
                  interagency coordination , particularly in the areas of child support, child care and
                  job ttaining. In addition to the two regional management committee members,
                  each policy committee is composed of the DSHS Children and Family Services
                  Regional Administtator, the DSHS Suppon Enforcement Regional Administtator
                  and at least one representative from the local Prvate Industr Council.

Washington                                             PROGRAM PROFILE
.'


                 Technical Advisory Groups: 
   Each region has at least one Technical Advisory
                 Group (TAG) to advise management on how to connect families with the local
                 resources necessar to achieve self suffciency. Membership -vares in each
                 region, but typically consists of representatives from community agencies,
                 educational and ttaiing institutions, employers, labor organizations, local
                 government, child care leaders in the community, and Family Opportunity
                 Council members.

     Case Coordination: 
       The PI case management system employs a team approach in
                 which the enrollee can work with a DSHS case coordinator, an ESD job service
                 specialist, and a DSHS social worker to plan and achieve self-suffciency goals.
                 The ITPA service providers and Famly Opponunity Councils may also be a par
                 of this team.

                The DSHS case coordinator meets with applicants to determne financial
                eligibilty and to complete a self-suffciency assessment. This assessment is done
                to: (1) identify barers to self-suffciency; (2) develop an action plan to address
                those barers; and (3) connect the famly with employment and ttaining services,
                other key specialists and community suppon systems.

                Enrollees choosing employment and ttaining services meet with an ESD job
                service specialist to develop an employabilty plan. The job service specialist wil
                help paricipants choose appropriate employment and ttaining activities. Job
                service specialists may approve the use of PI funds for tuition and supportive
                services essential to the success of the employabilty plan.

                All enrollees may receive social services designed to meet critical famly needs
                and to address barers to self-suffciency, such as money management problems
                or substace abuse.



                Throughout the time that a parcipant is in PI, staf continue to work as a team
                to provide ongoing case coordiation services.

                Volunteers:         PI is a mandatory program in the sites in which it has been
                implemented. However, FIP' s work program activities are voluntar.

                Food Stamp Cash Out: 
               PI paricipants receive their food stamp benefits in the
                form of cash rather than coupons.

                Shortened Application Procedure: 
   FIP uses a shonened financial application
                procedure and offers pre-application services to meet emergency needs and help
                clients prepare for the application process.

               Incentives for Work and Training: 
  FIP pays 5 percent over the standard benefit
                level to clients paricipating in education or ttaining. For clients working

     Washington                                               PROGRAM PROFILE
\) ,





               half- time, the incentive goes up to 15 percent. Paricipants working full-time
               receive suppon that guarantees that their total income wil be at least 35 percent
               above the standard benefit level.

               Greater Emphasis on Education and Training:                FIP strsses the imponance of
               education and ttaining for successful employment. The program offers a wider
               varety of education and ttaining activities than does Opponunities. As noted
               earlier, over 3, 200 clients received education or ttaining services in the fIrst
               months of FIP.

               Transition Services: 
Once an enrollee ears enough money to be able to leave
               assistance, FIP continues to provide the family with ttansitional child care and
               medical benefits for a period of 12 months.

               Specialized Pregnant and Parenting Teens Activities:   Pregnant and parenting
               teens are assisted by specially ttained staf. They are given special assistace to
               complete their high school education , paricipate in special parenting programs
               and obtan social services.

               Service Model: 
  Figure 1 is the FIP service model , which shows the sequence of
                services available to FIP parcipants.




        Washington                                           PROGRAM PROFILE
                                                  ""

                                                Figure 1



                   Family Independence Program s Service Model


                                          Family Applies
                                           for assistance
                                            at FIP office



                                       Application Services
                                 helps meet any emergent needs
                                 and explains application process



                                          FIP Orientation

                                  encourages participation in
                                Employment and Training Services




                                        Financial Interview

                                   with DSHS Case Coordinator

                                   determines program eligibilty




                                  Self-sufficiency Assessment

                          with DHS Case Coordinator Identifies barriers

                          to self-sufficency and connects family with key

                                                specialists


             Social Services Assessment                       Employment and Training
              with DSHS Social Worker                              Assessment
             addresses critical family needs              with ESD Job Service Specialist
             and barriers to self-sufficiency               develops an action plan for


                         Services Necessary to Achieve Self-Sufficiency

                                        Job Search Assistance

                                                 Incentives
                                            Child Care

                           Support for Approved Training and Education

                          Connections with JTPA and Trainng Institutions

                        Family Opportunity Council (FOC) Mentoring Services

                         Special Services for Pregnant and Parenting Teens




Washington                               PROGRAM PROFILE
                                                                         Appendix A





STATE OF WASHINGTON DEPARTMENT OF SOCIAL AND HEALTH SERVICES
      PROGRAM OVERVIEW STATEMENT


Aid To Familes With Dependent Children

       Like many other States, the State of Washington s employment programs for
       recipients of Aid to Familes with Dependent Children (AFC) are both in a state
       of ttansition and going through an evolutionar process.

       The State initiated individual job search and related social and supponive services
       for AFDC recipients in 1981. The purpose of implementing these title IV-
       funded activities was to expand services to those not being served by the Work
       Incentive (W) program. The goal was twofold: 1) to move recipients off the
       public assistance roles; and 2) to provide the necessar suppons to prevent
       recidivism. Over time statewide applicant job search and limted community
       work experience and grant diversion components were added to the program , as
       was group job search in the larger local offces. Initially, all title IV-
       employment program activities were administered by the Deparment of Social
       and Health Services. Since the mid- 1980' s, tpe employment services portion of
       the program has been conttacted out to the Employment Security Deparment.

       Although the States s program performed well in terms of placing people in
       employment, there were a number of areas of concern. Procedures for getting
       recipients from the public assistance offce to the employment service were
       cumbersome to the extent that some recipients never made it. Communication
       between the staf of the two agencies, in terms of changes in client status, were
       inadequate. Social work staff were often relegated to the role of authorizing child
       care. Recipients needing social work services were not uniformly referred for
       these services. Finally, the emphasis on job search and immediate employment
       combined with the lack of WIN and other funds for training militated against
       sound planning for many recipients in terms of their achieving long-term
       self-sufficiency.

       A thorough review of employment programs led to the conclusion that the
       problems being experienced could not be attrbuted to the staf of the two
       agencies but rather were the logical outgrowth of a maladaptive system. It was
       this review combined with a growing concern about the complexities of the
       AFC program which led Governor Gardner to request Jule Sugaran , Secretar,

                                        OVERVIEW STATEMENT                              A - 1
Washington
        Deparent of Social and Health Services, and Isiah Turer,        Commissioner,
        Employment Securty Deparment to develop a proposal which would both
        modfy and appropriately link public assistance and employment and trining
        activities for the AFC client population. The end result was the Family
        Independence Program (P).

Philosophy

        FIP embodes the philosophy that, in par, the well- being of children is enhanced
        by famly self-suffciency and that the achieving of tte self-suffciency for
        low- income familes is often contingent upon more than motivation. It is
        dependent upon both incentives and supports being built into the system.

Goals

        FIP has multiple sets of goals. The goal of the legislature in passing the enabling
        legislation was to reduce the number of children living in povert; thereby,
        enhancing their opponunities for physical and intellectual development. The
        goals of the administtation have been previously stated in this document.

        Within the context of legislative and admnistrative intent, the goals of the staff
        who developed and implemented the program are as follow:

             To make eligibilty ancilar to the provision of services;

             To maintain and strngthen the integrty of the family by removing
             disincentives to self-suffciency;

             To provide enrollees with the opponunity to take responsibilty for makg
             and following through on decisions regardig their futures;

             To eliminate systems and activities which ar   not   cost-effective; and

             To maintain accountability for the expenditure of public funds.

Program Operation

        FIP began operation in the State on July 1 , 1988 on a phased-in    basis.
        Parcipation in the employment and ttaining ponion of PI is voluntar.
        However, orientation and an initial assessment are required. All new applicants
        automatically go into PI for eligibilty purposes. This includes food stamp cash
        out and a somewhat simplified eligibilty determnation process. Recipients have
        the option of convening to FIP at the time of the annual eligibilty
        redetermination.



Washington                               OVERVIEW STATEMENT                              A -2
' I





              All enrollees are followed throughout the process by a case coordinator (manager)
              who is responsible not only for eligibilty but also for assisting enrollees in
              accessing any needed services. Case coordinators work closely with job service
              counselors and in most FIP sites ar or shortly wil be co- located.

              There is no specific ttack which all FIP enrollees follow with the exception that
              pregnant and parenting teens are assigned to case coordinators specializing in that
              area with the initial emphasis being upon high school or GED completion. Some
              enrollees go immediately into employment placement. Others go through a
              sequence of activities subsequent to an intensive self-sufficiency appraisal. The
              significant element is not that enrollees flow through the system but that there are
              a varety of options available and that enrollees are involved in selecting those
              activities in which they paricipate. The availabilty of other suppons in the
              system is also importnt. For example, child care is paid at 90 percent of the
              market rate. There are certain incentives available for paricipation. 105 percent

              of the payment standard for those in ttaining; 110 percent for those employed
              half- tie (over 75 hours per month). Transitional child care and medical care are
              available for 1 year subsequent to  grt  termination.

       Essential Elements

              In addition to administtative and legislative commitment to and support for the
              program and the previously mentioned incentives and suppons for enrollees,
              there have been a number of essential elements to both the development and
              implementation of FIP. Following are two of the major elements:

                    Involvement

                    The process for developing FIP subsequent to passage of the legislation was
                    based on maximum involvement of the private sector, servce providers,
                    advocacy groups, including legal services, federal staff and staff from the two
                    State agencies. This was done by establishing fourteen work groups , each of
                    which was responsible for making recommendations for one major element
                    of FIP, e. , eligibility, child car, ttaining. Pror to the making of decisions
                    on the work group recommendations, they were presented at public hearngs
                    around the State with opponunity to comment. A second round of hearngs
                    was held after the recommendations had been finalized and the system
                    designed.

                    Not only did this process serve to sttengthen relationships between staff of
                    the Deparment of Social and Health Services and the Employment Security
                    Deparent, it gave the interested "public " a sense of ownership and a clear
                    understanding of the decision-making process involved in designing the
                    program.



       Washington                               OVERVIEW STATEMENT                              A -3
             Phased- In Implementation

             FIP represents a radical change in the way in which the local offices of both
             agencies deal with clients. Phasing-in offces has given sufficient time for
             needed, in depth ttaining and follow-up. Staf have been able to identify and
             correct problems in the system , and offces in the process of implementation
             are able to benefit from the experiences of offces which have implemented.

             Challenges

             The major chalenge which FIP faces is one which is often encountered when
             an attempt is made to effect social policy within a political framework.
             Because the program is designed to lead to tre self-sufficiency, which often
             involves ttning, the pay-offs ar not imediately visible. Approval rates
             for new  applicants, especially two parent famlies, have increased. In the
             short term, costs have exceeded projections. Therefore, the task wil be to
             get continued legislative suppon unti PI has been in operation long enough
             to allow for a tre assessment of results.




Washington                               OVERVIEW STATEMENT                            A-4
oj 



                                       Appendix B





       Washington   SAMPLE DOCUMENTS          B. 1

        ==
                                                                                               Authorization Number


                 f!MlkY
                                                                                                         354702
               IN OO"'DENCE            SELF.   SUFFICIENCY                  PLAN               Case Coordinator's Name


                                                                                               Enroliee s Name (Last- First- Middle tnitlal)


 Part 1; Self-sufficiency Assessment
Check one: 0 New              Plan C Revised   Plan
Check as appropriate:
       PPT 0 Yes                0 No


             LEP        Primary language spoken if not English
                                   The following section should be completed by the Case Coordinator and Enrollee together

EMPLOYMENT AND TRAINING I

::urrent Situation:
                                                                     Goal: Short- term

                                                                                                    Long- term
                                                                                         Barriers:



'FAMIL Y SUPPORT I

Current Situation:                                                                       Goal: Short- term

                                                                                                    Long- term
                                                                                         Barriers:



      L TH CARE I


Current Situation:                                                                       Goal: Short- term

                                                                                                    Long- term
                                                                                         Barriers:




jATERNATIVE RESOURCESI

Current Situation:                                                                       Goal: Short- term

                                                                                                    Long- term
                                                                                             Barriers:



                                                       Referral       Follow-up                                                                    Referral         FOllow-

ISELF-SUFFICIENCY STEPS I                               Date            Date                                                                        Date               Date


                                                                                                             Outside Agency Services (specify)
        L- FIP EmplOymen: &. Tralnln; Services
              Social Services


              Family Oppcrtunity Council

                                                                                                              No Services Requested At This Time
              Child Care Services
              Refugee Services                                                                                Parenting Teen Services

 COMMENTS




 Enrollee s Signature                                        Case- Coordinator's Signature                                   Prnne Number                     Review Date



 DSHS 2-499 IX) (6- 881                                                                                                COPY TO: 0 Job Service Specialist          Social Worker
                                                                                     ENROLLEE
.""""
  ""..",.,....,.","      ---
                      q::::::.
               ..... .,..," ,.",.                                                        . . . . .. . . ..'......'...'.'.."""..""""""""."'.""".
                                                              ................................................'......................................
                                                                                                          . . .. . . . . .. . . . . . .. . . . . ... .. . .. .. ... .. ..... .. . ..
                                                                                                                                                                                  . ....... ..... .. . ... .. . . .. . .

                                                                                                                                                                                         SO SECUITY NUMIE
                         1'8001.11                                            SELF- SUFFICIENCY PLAN                                                                                     CASE NUMBE
                                                                                 Part 2: Employabilty Plan
       OlLfE' S NAME 1It.                  flt' MI)                                                                  CASE NAE           (I dlHertl                                                                           I'E

SHORT TERM
                             _Pi
                                                                                                                                           DOT CDOE                                         WAGE RANGE




LONG TERM                                                                                                                                                                   DOT CDOE                                         WAGE RANGE





PRVIOUS TRAINING OR WOI EXPERIENCE IN THE AIOVE OCCUPATIONS




                                                                                                     Hourly wage           need after 1 year at 135                      to maintain self sufficiency
  Demand for Occupation(s) in the locl labor market                                             0 Goo                         Fair               Poor

  Wage expetion sufficientto support family size                                               at:           Entry level                   Yes                        1 Year             Yes 0 No                  2 Years              Yes 



                                                          ACTIVITY                                                                     DATES                                                 PROVIDER                                                    INITALS




                                                    Explain the answers to the following questions in the COMMENT Sectic;n below
              Is the plan appropriate base on enrollee scurrentaptitude and occupational goals?                                                                                                                                   DYes o No
             Dos the Enrollee concur?                                                                                                                                                                                             DYes o No
             The enrollee reques the following support services:
                      Child care     Transportation     Tuition, boks, and supplies                                                                      Clothing, tools      0 None

             Funding is approved for the folloing requesed services:

                      Child care    Transprtation       Tuition, boks, and supplies                                                                      Clothing. tools      0 None

             funding is availablefor the following requesed services:

                                    Child care        Transprtation 0                    Tuition ,           boks. and supplies                          Clothing. tools      0 None
             tf funding is not approved, doe the enrolle concur? .                                                                                                                                                                DYes o No
              Describe the reasons why funding is not approved.
              Dos the enrollee request Administrative ReviewlFair Hearing?                                                                                                                                                        DYes o No
              If funding is approved. desribe any limittions                                         on funding.
                   , n"





  undrsand
  undrsand tlt any
ENROlLfE'         SSlGNATUIt
     ag,.e to ".rtci".te in the
                             tlYt los
                                                      above
                                              of incentives and
                                            supp      services
                                                                  described plan. If I fail
                                                                              suppo services such
                                                                      are prvid               to me base on the
                                                                                                               to    ".rtici".te by
                                                                                                                      as   child
                                                                                                                                   availabilit
                                                                                                                                                  not   attending
                                                                                                                                       care and transrtation
                                                                                                                                                        of   fund
                                                                                                                                                                       dasss or


                                                                                                                                                                    and the exisenc
                                                                                                                                                                                     conucting
                                                                                                                                                                             allowances
                                                                                                                                                                                          of the
                                                                                                                                                                                                 and training
                                                                                                                                                                                                              work search
                                                                                                                                                                                                                      cost
                                                                                                                                                                                                        Family Indpendnce
                                                                                                                                                                                                                           DATE
                                                                                                                                                                                                                                  as
                                                                                                                                                                                                                                may
                                                                                                                                                                                                                                        have agreed
                                                                                                                                                                                                                                          result. I
                                                                                                                                                                                                                                             Program.
                                                                                                                                                                                                                                                          to, I
                                                                                                                                                                                                                                                       further




On      behalf          of th          Employment         Seri             De".rtent,                 commit supp                    services lised           in th   abo plan to          th extent           that fund        are    available      and the

Family Inpendnce Program exis                                         Th       plan     is subject      to   annal         review.         If fund become unavailabl                  to supprt        this     plan,   the aboe          enrollee wil not

be     ,.oui                to      follow tlvouqh with          th    descri               plan.

J08 SERVICE          SPCiISTS SlNATUR                                                                                                            LOCL OffICE NUMIER               DATE                                  JSS ID"




EMS 1881              flP        "'I                                             DISTRIBUTION:               WHITE. JOB SER..ICE SPCIALIST                            CANARY. CASE COOINATOR                        PlN      . ENROlLEE
                    ~~~                                 , ':::    """ ' ' .'   ., 
   .. , "   '                       !!.    ....,
                                                                                                                                ,.. ",   ,




                                                         INCOME COMPUTATION ONGOING CASES



                                                                               :NROLlEl'S N.cME
 STEP ONE                     AFDC HOLD HARMLESS COMPUTATION

      Gross Earned Income                                                      p.c Y'oENT MONTH                         N"J ,IB R It' HO:'' )l



 2, $75 Deduction

                                                                               (,,')( rJ, 't/18ER
 3. Dependent Care
      (Compute at converSion only)

14.	 $30 + 1/3 Deduction (d eligible)                                          COMPLETED BY


      $30 Deduction (If eligible)
 6. Net Nonexempt Earned                Income
 7. AFDC Payment              Standard
                                                                               STEP THREE
 8. Unearned Income

                                                                               PART
 9. Net Nonexempt Earned Income

      (lIne 6)                                                                 21. AFDC Eligible Grant Amount
 10. AFDC Grant Payment                                                                 (line 10)


                                                                               22. FIP Eligible Grant Amount
                                                                                        (Ime 20)
STEP TWO                      FIP HOLD HARMLESS COMPUTATION
                                                                               23. Holdharmless Payment
                                                                                        (AlC Code JJ DSH$ 7- 01 (X))
 11. Gross Earned Income
 12. 10% Deduction                                                             PART 8
 13. Net Nonexempt Earned Income                                               24. FIP Eligible Grant Amount *
 14. Unearned Income                                                                    (Ime 22)                       :0:i
 15. Total Nonexempt Income                                                    25. Holdharmless Payment *
                                                                                        AlC Code JJ (line 23)
 16. AFDC Payment Standard
                                                                               26. Overpayment Deduction
 17. Incentive Payment                                                                  (If applicable)
 18. Total FIP Payment Standard                                                27. Total IV- A Cash Grant
 19. Total Nonexempt Income                                                             Amount Authorized
      (I me 15)

 20. FIP Grant


 STEP FOUR

  If the Total FIP IV- A cash grant (line 27) authorized in      Step Three is zero o r a negative number , compare the following:
       FIP BENCHMARK STANDARD PLUS INCENTIVES

       FIP TOTAL - I ON- EXEMPT INCOME (line 19)

              If the FIP Total Non-exempt Income (line 19) is less than the Benchmark Standard pi us Incentives, authorize
              Medical and Child Care.
              If the FIP Total Non-exempt income (line 19) is more than the Benchmark Standard plus Incentives , determine
              eligibility for Transitional Benefits.

 DSHS 7- 62   (X)   (11/88)   28 Com. Code #7540- 083- 029
            .. .. ..
                  .. ...._......... .."...- ---..
                  ........-
                      --.     ..          -,
                                           '. - - ..,..--,.
                                               --                               ..--.. ------ --
                                                                                        ---
                                                                                  ....-,.....
                                                                               - ...              ..-..
                                                                                           .. ."...
                                                                                          ..          ..                 ... .....,
                                                                                                                              ..      



OPPORTUNITIES MAUAL:                          FORMS


                                                                                                                             Issued 04/87


EMS 10003 (Rev. 11/86). EMPLOY AB I L ITY PLAN




                                                                   eTA" 01
                                                        !INT UCU                   DlPAlNT
                                                             ElOYAB PL eo                             c-




                                                                                                  RSNo
                    AN


            I.              10     E r , 88' m-              18           .. 10 .. ..




                  .. 8I            Tra "'II\                  IW 8I ..         ea. L""       81




                                             .. Wk I 81,   .. II    or    iI   No:
                         81   Ac:

                                    il OPUNS




             N.    t) 14 1I.. 00                                                         I'
                                                                                         IW FI
                                                                                                    _I Qo       1118'




                                     "'t
              Y.                          A.",. If
             'I 18C11""8b..    .. 0l- ._. I"'.. -                                                         Ya --to"'''
                                                                                                                 8d.
                         II 8I
                                                                                          .dw       111
                                                                                                                             be
                    I" ."   ., OPTUS --..
                              '.81 D u b "    10
                                                          81 ."OPTlS --
                                                                                          -. 8I
                                                                                        oior II8I              8I
                                                                                                                    or
                                                                                                                            . co 81 11
                    .... or",-
                                                     ..... 111 I     11
                                                                    .. 8I10                           81-.""     TI""     ....11. ..1
                                                                          or                      81 ..aO      81 ..
                                     81
                                    or   .-ac           pr _.

            - t8 ",.,'' 01."
                                           ......
                                            . . . ..                                                                        ,..




                       FAMILY                          FIP       CHILD CARE CO- PAYMENT CALCULATION
                            1:!:DENCE
fJ




                                                                                                                        ic.




     You are eligible for 12 months of Family Independence Program child care benefits with a co- payment A co­
     payment is your share of your child care cost. You are responsible for paying the monthly co- payment directly to
     your child care provider.
     Your 12 month period of eligibility is



                          INCOME COMPUTATION                                                        CHILD CARE CALCULATION


      Gross income (average)                                                             Child care cost (average)

      Less 135% of benchmark
                                                                                                                                                            (8)

                                                                                (A)


                                        Compare item A and item B. The lesser amount is the co- payment.




     Your monthly co- payment for the period
     will be $

     Your co- payment is calculated based on a six-month projection of your gross income and child care costs Any
     changes in your family s income, child care cost , or provider must be reported immediately to your Case
     Coordinator.

     If there is a change in your monthly co- payment amount, you will receive a written advance notice.



                                                                                                        WORKER' S SIGNA TURE



     FAIR HEARING RIGHTS: If you think we made a mistake , you may ask for a fair hearing, You mu             do so withm      90   days by telling your worker
     or writing   to   the Office of Hearings. P. O. Box     2465,   Olympia WA 98504.
         , ,.
          "I i           7"




                  You are eligible
                                     for 1 2 months
                                         continued child care benefits
                                                 co- payment if:
                                                 with a 





                                                                      . You are a FIP   enrollee; and
                                                                      .   You are employed; and
                                                                      .   Your FIP cash assistance has ended
                                                                          due to increased earnings.




          Your monthly co- payment (your share of child care costs) is calculated by comparing
          25% of your child care cost with 25% of the amount your family s income exceeds the
          FIP grant standard. The lesser of the two amounts is your monthly co- payment.

          Example:
                 Child        care   cost for one month     = $400.           Excess income for one month   = $100.
                                                                   25%                                                25%
                                                               100.                                             25.

                                             The co- payment in this example would be $25. 00.


         each month.
          You are responsible for paying your share of child care costs to your child care provider




DSHS , 0. 194 back (6 881
